              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

    EVALUATION REPORT




         Geothermal Royalties
 
Report No. C‐IN‐MOA‐0004‐2009                   March 2010
 
Cover Photos

Nesjavellir Geothermal Power Plant in Iceland (Upper Left)
Source: http://en.wikipedia.org/wiki/Geothermal_power

Production Size Drilling Rig (Upper Right)
Source: Geothermal Education Office
http://geothermal.marin.org




Turbine Generator at an Imperial Valley (Lower Left)
Geothermal Power Plant in California
Source: Geothermal Education Office
http://geothermal.marin.org

Krafla Geothermal Station in Northeast Iceland (Lower Right)
Source: http://en.wikipedia.org/wiki/Geothermal_power
                       United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington , DC 20240




                                                                                  MAR 0 9 2010


To:          Wilma Lewis
             Assistant Secretary, Land and Minerals Management

From:        Mary L. Kendall
             Acting Inspector Genera

Subject: Evaluation Report - Geothermal Royalties (C-IN-MOA-0004-2009)

   This memorandum transmits our report detailing the results of our evaluation of the
Geothermal Program. Specifically, we wanted to determine:

        :> what royalty rates were actually paid by producing companies using the netback
             valuation method ;

        :>   how these rates compared to the rates outlined in the Energy Policy Act of 2005 ; and

        :> what work Minerals Management Service (MMS) was doing to ensure the accuracy of
             reported data.

     Overall, we found that two of eight companies reviewed consistently claimed the maximum
deduction percentage and another four companies claimed the maximum deduction percentage in
at least 6 of the 12 months reviewed. In addition, we found that MMS performed audits that
adequately determined that only allowable deductions were claimed. We found, however, that
MMS was not performing a sufficient number of audits to ensure that all geothermal companies
were consistently deducting only allowable expenses.

    The report contains five recommendations which, if implemented, will improve controls over
the geothermal program. We would appreciate being kept apprised of the actions the Department
has taken on our recommendations as we will track the status of their implementation. Please
have a written response forwarded to this office within 30 days, identifying plans to address the
findings and recommendations cited in this report.

   Should you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745.
 



                                                               INTRODUCTION

Background
Geothermal energy is a renewable resource extracted from heat stored in the earth. (See
Appendix 1: Description of Geothermal Energy.) Geothermal resources managed by the Bureau
of Land Management (BLM), generate approximately 50 percent of the nation’s geothermal
energy. Between June 2004 and June 2009 geothermal revenues totaling $129.6 million were
collected by MMS.

The Geothermal Steam Act of 19701 (the Act) authorized the Secretary of the Interior to issue
leases for the development of geothermal resources from lands administered by the Department.
As of the date of our review 16 companies in 3 states
were producing geothermal energy from DOI lands.                  The netback method of calculating
Under the Act, calculating geothermal royalties was              royalties applies only to leases issued
relatively simple. Developers of geothermal fields sold         prior to the Energy Policy Act of 2005.
steam and hot water to third party power producers,
                                                                             Gross Proceeds
thereby establishing a sales price upon which royalties                  -Allowable Deductions
could be based. Over time, however, companies began                          Net-Back Value
using the geothermal resources for commercial                             x Lease Royalty Rate
production, generating electricity on site. As a result, in                   Royalties Due 
1991, the Minerals Management Service (MMS) issued
new regulations calling for subtracting, or “netting back,” the costs of generation and
transmission from the electricity’s sales revenues. The formula, referred to as the netback
method, was complex due to different methods of accounting for depreciation, uncertainty over
which costs qualified for deduction, and commingling of federal and nonfederal resources.

Why We Did This Evaluation                                                    In accordance with the EPAct of 2005,
                                                                                 BLM regulations established the
In 2005, the Energy Policy Act2 (EPAct) was passed with                       following for calculating royalty rates:
provisions aimed at simplifying the complex netback                First 10 years of production
royalty calculation. The EPAct directed that, for new                      Gross Proceeds
leases, the royalty rate be set at “not less than 1 percent                    x 1.75%
and not more than 2.5 percent of the gross proceeds …                       Royalties Due
during the first 10 years of production” and not more than       After first 10 years of production
5 percent of gross proceeds after the initial 10-year                      Gross Proceeds
period. In June 2007, BLM set the royalty rate at 1.75                         x 3.5%
percent for the first 10 years of production and 3.5                        Royalties Due 
percent after that. While current lease holders could
choose to switch to the new, simplified royalty calculation, none have.

                                                            
1
 Geothermal Steam Act of 1970, 30 U.S.C. Chapter 23, §§ 1001-1028, (as amended).
2
 Energy Policy Act of 2005, 30 U.S.C. Chapter 23, § 1001-1028, (as amended), 43 CFR Part 3200 – BLM, and 30 CFR Part
206.350-.366 - MMS. 


                                                                                                                Page | 2 
 
 



We conducted this evaluation to determine (1) what royalty rates were actually paid by
producing companies using the netback valuation method, (2) how these rates compared to the
rates outlined in the EPAct, and (3) what work MMS was doing to ensure the accuracy of
reported data. (See Appendix 2: Objective, Scope, and Methodology.)


                                                               WHAT WE FOUND

Royalty Rates Actually Paid
We reviewed the eight producing                                                                   Royalty Rate
companies that were using the netback                               Company Name                  Actually Paid
method of calculating royalties at the time                         Empire Energy, LLC               0.10%
of our review. (See Appendix 3: Company                             Steamboat Hills LP               0.10%
Universe.) The royalty rate contained in the                        Brady Power Partners             0.52%
lease for these eight producing companies                           Ormesa, LLC                      0.52%
was 10 percent. Based on our analysis,                              Mammoth Pacific LP               0.87%
however, we determined that the average                             Coso Geothermal Holdings, LLC    1.58%
royalty rate actually paid ranged from 0.10                         Terra-Gen Dixie Valley, LLC      5.96%
percent to 6.31 percent.3                                           Beowawe Power, LLC               6.31%

This occurred because the netback method of calculating royalties allows companies to subtract
the costs of generation and transmission from the value of the electricity sold prior to calculating
the royalty due. (See Appendix 4: Examples of Allowable and Unallowable Deductions.) MMS
administrative rules allow companies to deduct allowable expenses, up to 99 percent of the value
of gross sales, before calculating the royalty due on the sales. For five companies, this level of
allowable deductions caused the royalty rate actually paid to be substantially below the royalty
rates established by the EPAct.  

We asked why MMS administratively selected 99 percent and were told that, while there was no
regulatory deduction threshold, the regulation4 stated that deductions cannot reduce the resource
value to zero. Therefore, MMS officials told us, “as a practical matter and for efficiency
purposes,” MMS chose to limit the deduction amount to 99 percent. MMS officials were unable
to provide any support for how the 99 percent limit was determined. We also asked whether
MMS had reconsidered this administratively established 99 percent deduction limit. They stated
they had not. MMS officials went on to state that since the deductions were limited to
reasonable, actual costs related to electric generation and transmission and were subject to audit,
the 99 percent deduction limit was not of significant concern.

An MMS official did acknowledge, however, that companies consistently taking the 99 percent
does indicate a potential compliance issue. We identified two companies that took the full 99
percent deductions each month for the entire year, with no fluctuations. In addition, we identified
                                                            
3
    This was between June 2008 and June 2009.
4
    30 CFR 206.352(b)(1)(i)


                                                                                                        Page | 3 
 
 


four companies that took the full 99 percent deduction in at least 6 of the 12 months reviewed.
Therefore, we questioned the validity of the deductions claimed by these companies and turned
these companies over to our Office of Investigations for further review.

Accuracy of Deductions
We reviewed three audits, completed in the last 5 years, performed by MMS or the California
State Comptroller’s Office on geothermal companies. (See Appendix 5: Universe of Audits
Conducted.) Overall, the audits were adequately designed to ensure the accuracy of royalties.
Specifically, the audits looked at supporting documentation in detail to ensure that only
allowable expenses were taken. For example, one audit identified unallowable expenses. As a
result, MMS negotiated a settlement with the company for payment of unpaid royalties totaling
$6.8 million.

Overall, MMS had only initialed or completed audits on 6 of the 16 producing companies in the
last 5 years. Two producing leases had not been audited by MMS in over 15 years. As a result,
the royalties paid by some companies may be significantly below the actual royalty owed.

MMS could improve its audit effectiveness by targeting high risk companies for audit. MMS
does not require companies to submit monthly gross proceeds or production data. As a result,
MMS is unable to do up front checks to identify companies that are (a) consistently claiming the
full 99 percent deduction on a routine basis, which should make them a priority for an audit, or
(b) failing to submit documents supporting required royalty payments.


                                 RECOMMENDATIONS

The Director, Mineral Management Service should:

    1. reevaluate the appropriateness of the 99 percent deduction allowance in light of the
       royalty rates established in the EPAct and the low royalty rates actually paid.

    2. perform either a compliance review or an audit on the six companies deducting 99
       percent for more than half of the year to determine the appropriateness or allowability of
       the deductions claimed.

    3. require companies using the netback method of royalty calculation to submit gross
       proceeds and production data in addition to the data already being submitted.

    4. develop and implement checks to ensure companies are submitting all required
       documentation each month.

    5. develop and implement review procedures to ensure that companies’ monthly deduction
       percentages are properly calculated and used to prioritize compliance reviews or audits.



                                                                                          Page | 4 
 
                                                                                Appendix 1 

                      DESCRIPTION OF GEOTHERMAL ENERGY


         What is geothermal energy? 
      Geothermal energy is defined as 
          heat from the Earth. It is 
     considered a renewable resource 
     because the heat emanating from 
         the interior of the Earth is 
     essentially limitless. It flows from 
      the Earth’s interior, primarily by 
    conduction, and is estimated to be 
    equivalent to 42 million megawatts 
                  of power. 
                                                                                             




         How does a reservoir work? 
       A geothermal system requires 
       heat, permeability, and water. 
        When water is heated by the 
     Earth’s temperature, hot water or 
       steam can be trapped in rocks 
    under a layer of impermeable rock. 
    This causes a geothermal reservoir, 
    a natural collection of hot water, to 
                    form. 

                                                                                             




        When hot water and steam reach 
           the surface, they can form 
        fumaroles, hot springs, mud pots 
             and other phenomena. 
     




                                              

Pictures are used courtesy of the Geothermal Education Office in Tiburon, CA 
                                                                                     Page | 5 
 
                                                                                Appendix 1 




       Many areas have accessible 
         geothermal resources, 
      especially countries along the 
        Pacific "Ring of Fire" and 
         continental drift zones.




                                                                                              
 




       The areas in orange and red 
          are where with today's 
       technology, we can find and 
        use geothermal reservoirs. 




                                                                                              
 


         The fastest growth in U.S. 
    geothermal power was from 1980 
      to 1990 following enactment of 
    federal laws compelling utilities to 
          purchase electricity from 
          independent producers. 
                       
         Over 2,800 megawatts of 
    electricity from geothermal power 
        plants are supplying about 4 
          million people in the U.S. 

                                                                                              
                                    

Pictures are used courtesy of the Geothermal Education Office in Tiburon, CA 
                                                                                     Page | 6 
 
                                                                                      Appendix 1 

           Three Primary Types of Geothermal Power Plants 
 

                                                                         Binary Power Plant 
                                                                    The heat from geothermal water 
                                                                     sources are used to vaporize a 
                                                                 "working fluid" in adjacent pipes. The 
                                                                   steam‐like vapors power a turbine 
                                                                  generator. Binary plants use cooler 
                                                                     geothermal resources. Recent 
                                                                  advances in geothermal technology 
                                                                   have made possible the economic 
                                                                      production of electricity from 
                                                                    geothermal resources lower than 
                                                                             150°C (302°F). 
                                                                                                            
 



                                                                      Flash Steam Power Plant 
                                                                    In flash plants, as hot water is 
                                                                  released from the pressure of the 
                                                                   deep reservoir into a flash tank, 
                                                                  some of it “flashes” to steam. This 
                                                                   steam is then used to power the 
                                                                  generators. Flash plants use “hot” 
                                                                         geothermal resources. 


                                                                                                            
 



                                                                      Dry Steam Power Plants 
                                                                 Dry steam geothermal fields are rare. 
                                                                    In these geothermal resources, 
                                                                  steam (and no water) shoots up the 
                                                                   wells and is passed through a rock 
                                                                   catcher and then directly into the 
                                                                 turbine to power the generators. Dry 
                                                                 steam plants use the hottest form of 
                                                                         geothermal resources. 


                                                                                                                 


Pictures are used courtesy of the Geothermal Education Office in Tiburon, CA 
                                                                                                 Page | 7 
 
                                                                                Appendix 2 

                  OBJECTIVE, SCOPE, AND METHODOLOGY


                                         Objective 
The objectives for our evaluation were to determine (1) what royalty rates were actually paid by
producing companies using the netback valuation method, (2) how these rates compared to the
rates outlined in the EPA, and (3) what work MMS was doing to ensure the accuracy of reported
data.

                                            Scope 
The scope of our evaluation covered geothermal activities performed by BLM and MMS. We
limited our review to (1) companies paying royalties under the netback method, and (2) audit
activities that occurred within the last 5 years. We excluded two companies currently under
investigation.

                                      Methodology 
We conducted this evaluation in accordance with standards established by the President’s
Council on Integrity and Efficiency (PCIE), effective January 2005. To accomplish the
evaluation objectives, we –

       reviewed DOI policies, procedures and handbooks to gain an understanding of the
       bureaus’ geothermal program;

       interviewed appropriate BLM and MMS officials at the headquarters, state offices, and
       field office levels;

       visited select BLM sites to obtain an understanding of the geothermal program and obtain
       examples of lease activity documentation;

       visited select MMS sites to gain an understanding of the geothermal program and to
       review audits performed by MMS and the Controller of the State of California.

       obtained and analyzed data from producing geothermal companies, BLM, and MMS for
       the period June 2008 to June 2009. We used the data to calculate deduction percentages
       and the percentage of royalty rates actually paid. In addition, we looked for discrepancies
       in the data received from the different sources;

       obtained and analyzed audits performed by MMS and the Controller of the State of
       California to determine work performed on the allowability of deductions;



                                                                                           Page | 8 
 
                                                                            Appendix 2 
    non statistically selected two MMS audits (one from California and one from Nevada)
    that were completed within the last 5 years on companies that were using the netback
    method of calculating their royalties. We also non statistically selected one audit
    completed by the State of California Controller’s Office completed within the last 5 years
    on a company that was using the netback method of calculating their royalties; and

    reviewed all companies using the netback method of calculating royalty rates except the
    two companies that are currently the subjects of an ongoing investigation. (See Appendix
    3: Company Universe.) 




                                                                                      Page | 9 
 
                                                                               Appendix 3 

                                COMPANY UNIVERSE

                                        California
                                             Number of Producing          Royalty Calculation
Company
                                                  Leases                     Methodology
Coso Geothermal Holdings, LLC                        2                         Netback *
Geysers Power Company, LLC                           8                    Approved Alternative
HL Power Company                                     1                    Approved Alternative
Heber Field Company                                  1                    Approved Alternative
Mammoth Pacific, LP                                  2                         Netback *
Northern California Power Agency                     2                    Approved Alternative
Ormesa, LLC                                          6                         Netback *
Sliverado Geothermal Resources                       2                    Approved Alternative

                                          Nevada 
                                             Number of Producing          Royalty Calculation
Company
                                                  Leases                    Methodology
Amor 10-Soda Lake (Under Magma                         4                      Netback #
Energy Corp)
AMP Resources (Stillwater)                               2                      Netback #
Beowawe Power, LLC                                       2                      Netback *
Brady Power Partners                                     6                      Netback *
Empire Energy, LLC                                       1                      Netback *
Steamboat Hills, L.P.                                    2                      Netback *
Terra-Gen Dixie Valley, LLC                              4                      Netback *

                                            Utah 
                                             Number of Producing         Royalty Calculation
Company
                                                  Leases                    Methodology
PacifiCorp Energy Fuel Resources                     5                   Approved Alternative

                                    Scope of Evaluation 
While there were a total of 16 companies holding 50 leases, our evaluation was limited to those
companies using the netback method of calculating royalty rates.
       * - We reviewed these eight companies’ deduction rates and calculated the royalty rates
           actually paid during this evaluation.
       # - We excluded these two companies from our evaluation because they are the subject
           of an ongoing investigation.


                                                                                        Page | 10 
 
                                                                             Appendix 4 

    EXAMPLES
             OF ALLOWABLE AND UNALLOWABLE DEDUCTIONS
 
 
Allowable Costs 
        Direct wages and employee benefits (such as medical and retirement) paid to
        employees while engaged in the daily routine operation, maintenance or repair of the
        generating facility and transmission line.
        Payments to consultants or service companies for the daily routine operation,
        maintenance or repair of the generating facility and transmission line.
        Expenditures for supplies and miscellaneous replacement parts that are directly
        associated with normal operation and repair of the generating facility and
        transmission line.
        Shop tools necessary for the repair and maintenance of power conversion equipment.
        Expenditures for lubricants used in power plant equipment, such as turbine generators
        and cooling-water pumps.
        Expenditures for chemicals used in the power-generation process, including
        chemicals used for preventing or treating scale or corrosion of the turbine.
        That portion of operation and maintenance expenditures for down-hole well pumps,
        including costs of purchased electricity to run down-hole pumps necessary for the
        specific design requirements of the power conversion process.
        Costs of purchased electricity to operate the power plant.
        Fuel and other expenses for auxiliary generators.
        Insurance, ad valorem property taxes (limited to the property occupied by the power
        plant).
        Automotive equipment allocable to power plant operations.
        Office furniture and equipment (telephones, computers, chairs, desks, that are directly
        associated with the generating facility etc.)
        General administrative and corporate overhead costs (telephone service, office
        supplies, accounting and legal functions) that can be directly attributable and
        allocable to power plant operations.

Unallowable Costs 
        State and Federal Income Taxes.
        Severance taxes.
        Royalty payments, including overriding royalty.
        Operation and maintenance expenses associated with effluent/condensate reinjection.
        Late payment fees for loan payments and other bills.
        Penalties for environmental violations.
        Legal Fees.
        Consulting Fees.
        Holiday Parties.
        Bonuses.
        Other corporate projects or costs not directly related to the routine operating and
        maintenance of the generating facility and transmission line.

                                                                                      Page | 11 
 
                                                                       Appendix 5 

                    UNIVERSE OF AUDITS CONDUCTED

                       Mineral Management Service 
    Company                                              Number of Leases Reviewed
    Beowawe Power LLC                                                2
    Brady Power Partners                                             6
    Northern CA Power Agency                                         2
    Ormesa, LLC                                                      4
    Steamboat Hills, LP                                              2
    Terra-Gen Dixie Valley                                           4
 
 
                    California State Controller’s Office 
 
    Company                                              Number of Leases Reviewed
    Calpine Natural Gas LP/Calpine Geysers Company, LP               6
    Coso Energy Developers                                           2
    Geo East Mesa LTD Partnership                                    1
    Griffin Resources                                                2
    Mammoth Pacific, LP                                              1
    Northern CA Power Agency                                         2
    Ormesa, LLC                                                      7
    Silverado Geothermal Resources                                   3




                                                                              Page | 12 
 
                                                                       




 


     
            Report Fraud, Waste, Abuse
               And Mismanagement

                            Fraud, waste, and abuse in
                         government concerns everyone:
                        Office of Inspector General staff,
                        Departmental employees, and the
                       general public. We actively solicit
                        allegations of any inefficient and
                       wasteful practices, fraud, and abuse
                     related to Departmental or Insular area
                    programs and operations. You can report
                        allegations to us in several ways.




        By Mail                  U.S. Department of the Interior
                                 Office of Inspector General
                                 Mail Stop 4428 MIB
                                 1849 C Street, NW
                                 Washington, D.C. 20240

        By Phone:                24-Hour Toll Free     800-424-5081
                                 Washington Metro Area 703-487-5435

        By Fax:                  703-487-5402

        By Internet:             www.doioig.gov/hotline




 
